   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




June 7, 2011

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at The Floating Hospital, a Health Resources
               and Services Administration Grantee (A-02-10-02008)



The attached final report provides the results of our limited scope review of The Floating
Hospital, a Health Resources and Services Administration Grantee. This review is part of an
ongoing series of reviews performed by the Office of Inspector General (OIG) to provide
oversight of funds provided by the American Recovery and Reinvestment Act of 2009, P.L. No.
111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
6 months. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-02-10-02008 in all correspondence.



Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
          REVIEW AT
  THE FLOATING HOSPITAL, A
HEALTH RESOURCES AND SERVICES
   ADMINISTRATION GRANTEE



                       Daniel R. Levinson
                        Inspector General

                           June 2011
                         A-02-10-02008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY
BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program. The HRSA health centers are community-based and
patient-directed organizations that serve populations with limited access to health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

The Floating Hospital (the hospital), a non-profit agency, is a freestanding diagnostic and
treatment center that provides medical, dental, and mental health services to residents of Long
Island City, a neighborhood in New York City, without regard to income or insurance status.

The hospital is primarily funded by patient service revenues and Federal and New York City
grants. During calendar year 2009, HRSA awarded Recovery Act funds to the hospital totaling
$3,728,766. Of that amount, $1,491,800 was allocated for capital improvements and $2,236,966
was allocated for increasing the number of patients served by expanding the health center
location and employing additional health care professionals.

OBJECTIVE

Our objective was to assess The Hospital’s financial viability, capacity to manage and account
for Federal funds, and capability to operate a health center in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe the hospital is financially viable and is generally capable of
operating a health center in accordance with Federal regulations. However, we noted certain
weaknesses in its ability to properly account for and manage Federal funds. Specifically, the
hospital’s accounting software is not currently programmed to properly segregate operating
expenses between Federal and non-Federal expenditures, and internal controls over access to the
accounting software are inadequate. We also noted issues related to the hospital’s safeguarding
of assets, procurement practices, and whistleblower protection. Finally, the hospital does not
currently maintain inventory records for all equipment or perform adequate physical inventories.




                                                i
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing the hospital’s ability to account for and manage Federal
funds and to operate a community health center in accordance with Federal regulations.

THE FLOATING HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the hospital agreed with our findings regarding its
safeguarding and accounting for assets, and its whistleblower process, and described actions that
it has taken or planned to take to address these deficiencies. The hospital disagreed with our
remaining findings. The hospital stated that its accounting system properly segregates revenue
and expenses by Federal program and that program expenditures can be covered by both Federal
grants and program income. The hospital also stated that certain purchases did not require
competitive bids or cost or price analyses. Lastly, the hospital stated that it should not be cited
for performing inventories that were in accordance with its standard business practices.

After reviewing the hospital’s comments, we maintain our findings regarding its ability to
properly manage and account for Federal funds.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              The Health Center Program ................................................................................... 1
              The Floating Hospital ............................................................................................ 1
              Requirements for Federal Grantees ....................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 2

FINDINGS AND RECOMMENDATION................................................................................. 3

          ACCOUNTING SYSTEM ................................................................................................ 3

          SAFEGUARDING AND ACCOUNTING FOR ASSETS ............................................... 4

          PROCUREMENT PRACTICES ....................................................................................... 5

          WHISTLEBLOWER PROCESS ....................................................................................... 5

          INVENTORY RECORDS ................................................................................................. 6

          RECOMMENDATION ..................................................................................................... 6

          THE FLOATING HOSPITAL COMMENTS ................................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 8

APPENDIX

          THE FLOATING HOSPITAL COMMENTS




                                                                     iii
                                     INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. §
254b. Pursuant to 42 U.S.C. § 254b, the Health Center Program is a national program designed
to provide comprehensive primary health care services to medically underserved populations
through planning and operating grants to health centers. Within the U.S. Department of Health
& Human Services (HHS), the Health Resources and Services Administration (HRSA)
administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254b.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

The Floating Hospital

The Floating Hospital (the hospital), a non-profit agency, is a freestanding diagnostic and
treatment center that provides medical, dental, and mental health services to residents of Long
Island City, a neighborhood within New York City, without regard to income or insurance status.

The hospital is primarily funded by patient service revenues and Federal and New York City
grants. During calendar year 2009, HRSA awarded Recovery Act funds to the hospital totaling
$3,728,766. Of that amount, $1,491,800 was allocated for capital improvements under the
Capital Improvement Program (CIP) grant and $2,236,966 was allocated for increasing the
number of patients served by expanding the health center location and employing additional
health care professionals under the New Access Point (NAP) grant and the Increased Demand for
Services (IDS) grant.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget (OMB) Circular A-122), pursuant to 45 CFR§ 74.27(a). In addition,
42 U.S.C. § 254b and implementing regulations at 42 CFR pt. 51c define requirements for health
centers under the Health Center Program.


                                               1
The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. In addition, the Recovery Act requires grantees to
establish procedures related to whistleblower protection. Finally, grantees are required to
maintain inventory control systems and take a periodic inventory of grant related equipment
(45 CFR 74.34(f)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the hospital’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

Scope

We conducted a limited review of the hospital’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of the hospital’s internal control structure. Rather, we performed limited tests and
other auditing procedures on the hospital’s financial management system to assess its ability to
administer federally funded projects.

We performed our fieldwork at the hospital’s administrative office in Long Island City, New
York during April 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed the hospital’s HRSA grant application packages and supporting documentation;

   •    interviewed the hospital’s personnel to gain an understanding of its accounting system
        and internal controls;


                                                  2
    •   reviewed the hospital’s financial management procedures related to accounting
        documentation, preparation of financial reports, procurement, drawdown of Federal
        funds, inventory, and other financial matters;

    •   reviewed subjectively selected procurement transactions for detailed review;

    •   reviewed the hospital’s independent audit reports and related financial statements for
        fiscal years 2006 through 2008;

    •   performed ratio analyses of the hospital’s financial statements; and

    •   reviewed the hospital’s administrative procedures related to personnel, conflict
        resolution, whistleblower protection, and other non-financial matters.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

Based on our assessment, we believe the hospital is financially viable and is generally capable of
operating a health center in accordance with Federal regulations. However, we noted certain
weaknesses in its ability to properly manage and account for Federal funds. Specifically, the
hospital’s accounting software is not currently programmed to properly segregate operating
expenses between Federal and non-Federal expenditures, and internal controls over access to the
accounting software are inadequate. We also noted issues related to the hospital’s safeguarding
of assets, procurement practices, and whistleblower protection. Finally, the hospital does not
currently maintain inventory records for all equipment or perform adequate physical inventories.

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21(b)(1), grantees must maintain financial systems that provide for
accurate and complete reporting of grant-related financial data. Contrary to these requirements,
the hospital’s electronic accounting software is not currently programmed to allow the
organization’s operating expenses (except for equipment purchased with Recovery Act grant
funds) to be properly segregated between Federal and non-Federal expenditures. 1 As a result,
the hospital cannot accurately identify Federal grant expenses before withdrawing funds from the
HHS payment management system (payment system). Rather, the hospital withdraws funds
from the payment system based on a monthly review of total expenditures and estimates the
amount of expenditures that correspond to the Federal grant. As a result, it is possible that the
1
 Recovery Act equipment purchases, consisting of new medical and dental equipment were properly accounted for.
This was due to the equipment purchases not being considered operating expenses.



                                                      3
hospital could use Federal funds to pay for non-Federal expenses and, consequently, quarterly
status reports submitted to the Federal Government may not provide for accurate and complete
reporting of grant-related financial data. 2

Pursuant to 45 CFR § 74.22(b)(2), cash advances to grant recipients shall be limited to the
minimum amounts needed and be timed to be in accordance with the actual, immediate cash
requirements of the recipient organization in carrying out the purpose of the approved program
or project. Contrary to these requirements, the hospital does not have procedures to limit how
long it maintains Federal funds prior to disbursing them. Pursuant to 45 CFR § 74.21(b)(3),
grantees’ financial management systems must provide effective control over and accountability
of all funds, property, and other assets so the grantees can adequately safeguard all such assets
and assure they are used solely for authorized purposes. Contrary to these requirements, the
hospital’s internal controls over access to its accounting software functions are inadequate.
Specifically, individuals have full access to all accounting software functions. For example, one
individual with procurement responsibility improperly has access to the accounting software’s
accounts receivable, accounts payable, and general ledger functions.

Pursuant to 2 CFR, pt. 230, App. A, § A.4.a(1) (OMB Circular A-122, Att. A, § A.4.a(1)), grant
expenses are allocable to a grant award if they are incurred specifically for the grant award.
Contrary to these requirements, the hospital improperly charged indirect costs totaling $17,438 to
the IDS grant. These costs were not allowable for Federal reimbursement under the grant award.

SAFEGUARDING AND ACCOUNTING FOR ASSETS

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that grantees
can adequately safeguard all such assets and assure they are used solely for authorized purposes.
Pursuant to 45 CFR § 74.21(b)(6), grantees must have written procedures for determining the
reasonableness, allocability, and allowability of costs in accordance with the provisions of the
applicable Federal costs principles and the terms and conditions of the award.

The hospital has written fiscal procedures; however, it does not have procedures for transferring
funds between bank accounts and for the use of credit cards. Moreover, the hospital does not
have procedures to ensure that grant costs are reasonable, allocable, and allowable. Finally, the
hospital’s accounts payable department improperly maintains the supply of the organization’s
unused checks, while also being responsible for performing all accounts payable functions–
including the issuing of checks to vendors and entering of accounts payable journal entries.




2
  The hospital submits a Standard Form 269, Financial Status Report and a Health Center Quarterly Report to HRSA
via a secure website, as well as a Recovery Act report via a Federal government website for reporting Recovery Act
funding data.



                                                        4
PROCUREMENT PRACTICES

Pursuant to 45 CFR § 74.44, grantees are required to establish written procurement procedures,
which require solicitations for goods and services to provide a clear and accurate description of
the technical requirements for the material, product or service to be procured, requirements
which the bidder/offeror must fulfill and all other factors to be used in evaluating bids or
proposals, and the specific features of “brand name or equal” descriptions that bidders are
required to meet when such items are included in the solicitation. Pursuant to 45 CFR § 74.45,
grantees must document that every procurement action is supported by some form of cost or
price analysis.

The hospital’s written procurement procedures require that procurement records be maintained
for all acquisitions and that competitive bids be obtained or cost analyses performed for all
acquisitions of $5,000 or more. Further, procurement records for sole source acquisitions must
contain a written explanation of the unique situation and why only one vendor could meet the
hospital’s need. However, the hospital did not always follow its procedures. Specifically:

      •    The hospital purchased $15,800 of furniture and $23,196 of dental equipment without
           documenting that it performed cost analyses.

      •    The hospital did not obtain competitive bids for the purchase of the dental equipment.

      •    The hospital entered into a sole source contract for the installation of a fire alarm system,
           totaling $25,865. However, the explanation for the acquisition was undated and did not
           contain a cost analysis.

      •    The hospital made numerous purchases at a local paint and a local lumber store for
           renovations that, in total, exceeded its $5,000 competitive bid threshold. 3 However,
           competitive bids were not obtained and cost analyses were not performed for these
           purchases.

Because the hospital did not always follow its procedures, it may not have made these purchases
in the most economical, practical, and competitive manner.

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against employees of an organization
awarded Recovery Act funds for disclosing to appropriate authorities any credible evidence of
(1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross
waste of covered funds; (3) a substantial and specific danger to public health or safety related to
the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant awarded or
issued relating to covered funds. Pursuant to section 1553(e) of the Recovery Act, any employer

3
    The renovations were part of the hospital’s CIP grant and were performed in-house.


                                                           5
receiving covered funds shall post notice of the rights and remedies provided for the protection
of employees under this section.

The hospital has written whistleblower procedures that explain how employees can communicate
instances of wrongdoing to Hospital officials or the hospital’s integrity hotline. These
procedures also protect whistleblowers from any form of retaliation. However, the policy does
not address the right of a whistleblower to report wrongdoing to all appropriate authorities.

INVENTORY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees must maintain inventory records that contain the
following information for equipment acquired with Federal funds: a description of the
equipment, an identification number, its location, acquisition and disposition data, condition of
property, and whether title vests with the grantee or the Federal Government. In addition,
grantees must perform a physical inventory and reconcile the results of its inventory with
existing records at least once every two years.

Hospital written inventory procedures do not require information on: (1) acquisition and
disposition data, (2) condition of property, or (3) whether title vests with the grantee or the
Federal Government. The hospital does have written procedures which require that equipment
inventory records be maintained and updated annually. However, the hospital does not currently
maintain inventory records for all equipment or perform adequate physical inventories. As of
December 31, 2009, the hospital’s equipment was valued at $1,058,729.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing the hospital’s ability to account for and manage Federal
funds and to operate a community health center in accordance with Federal regulations.

THE FLOATING HOSPITAL COMMENTS

In written comments on our draft report, the hospital agreed with our findings regarding its
safeguarding and accounting for assets, and its whistleblower process, and described actions that
it has taken or planned to take to address these deficiencies. The hospital disagreed with our
remaining findings. The hospital’s comments are included in their entirety as the Appendix.

Accounting System

The hospital stated that its accounting system properly segregates revenue and expenses by
Federal program and that program expenditures can be covered by both Federal grants and
program income (e.g., donations, patient revenue). The hospital stated that its accounting system
has a single cost center that “contains both revenue and expenses covered by both the Federal
grant as well as program income.” The hospital further stated that grant funds are “not spent on




                                                 6
a line-item basis” and are, instead, spent after program income is applied. 4 The hospital
described this practice as “the total grant concept” and stated that Federal expenses are not
separately identified. The hospital also stated that its indirect expenses for the IDS grant were
applied as an expense for non-Federal expenses, which is consistent with what it described as
“the HRSA approved ‘total grant concept.’” Lastly, the hospital stated that it does not agree that
it is inappropriate for an individual with procurement responsibility to also have access to its
accounting system. Specifically, the hospital stated that it has a modest accounting staff and that
the individual described in our finding is responsible for supervising accounting staff when the
hospital’s Director of Finance is on leave.

Procurement Practices

The hospital stated that, pursuant to its procurement policies, its purchase of $15,800 in furniture
did not require a cost analysis because its procurement procedures were not intended to require a
cost analysis for every capital purchase. The hospital further stated that the $23,196 of dental
equipment it purchased was less expensive than similar items purchased under a competitive bid
from 2005. The hospital also stated that purchases made from a local paint and hardware store
were “of a routine nature” for an “overall renovation” that occurred over many months and were
dependent upon cash flow and available credit and that their “competitive bid threshold is
applied by vendor.”

Inventory Records

The hospital stated that, at the time of our review, equipment purchased with Federal funds that
was less than 10 months old would normally be inventoried before its program’s annual
anniversary. The hospital stated that it should not be cited for not inventorying these items
because we should show deference to standard business practices.




4
 The hospital described how it applied program income in an attachment to its comments. In it, the hospital
contends that its application of program income is in accordance with section 330(e)(5)(D) of the Public Health
Service Act (42 USC § 254b(e)(5)(D)) and HRSA guidance.



                                                         7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the hospital’s comments, we maintain our findings regarding its ability to
properly manage and account for Federal funds.

Accounting System

In its written comments, the hospital contends that section 330(e)(5)(D) of the Public Health
Service Act (42 USC § 254b(e)(5)(D)) (the statute) and HRSA guidance permit Federal grantees
to expend program income for any broad purpose that supports the health center program,
including expenditures that are unallowable for Federal reimbursement. 5 Furthermore, the
hospital implies that the statute and HRSA guidance permit the comingling of Federal and non-
Federal expenditures, regardless of their allowability or whether they are paid for with Federal
grant funds or program income.

We agree that the hospital may use Federal grant funds or program income to cover all allowable
program expenditures. However, Federal grant funds may not be used to cover unallowable
program expenditures which may be covered by program income. The statute only provides that
non-grant funds, which include program income, “may be used for such other purposes as are not
specifically prohibited under this section if such use furthers the objectives of the project.” This
provision does not authorize Federal grant funds to be used for unallowable program
expenditures. To ensure that Federal funds are expended only for allowable costs and that cash
advances to grant recipients are limited to the minimum amounts needed to carry out the purpose
of the approved program in accordance with 45 CFR § 74.22(b)(2), Federal grantees must:

    •    maintain financial systems that provide for accurate and complete reporting of grant-
         related financial data (45 CFR § 74.21(b)(1));

    •    account for all grant payments separately from all other funds, including funds derived
         from other grant awards and account for the sum total of all amounts paid as well as other
         funds and in-kind contributions for each approved project (42 CFR § 51c.112(a)); and

    •    comply with the NAP and IDS grant award terms and conditions, which require grantees
         to separately account for each Recovery Act award and prohibits the pooling of these
         funds with other funds for drawdown or other purposes.



5
 In accordance with the HHS Grants Policy Statement (pp. II-62-63) and 45 CFR § 74.24, the regular uses of
program income are limited to allowable costs in accordance with the applicable OMB cost principles and the terms
and conditions of the grant award. Depending on the terms and conditions stated in the award, program income
would either be added to funds committed to the project, deducted from the total allowable costs to determine the
net Federal reimbursement, or used to satisfy the non-Federal share matching requirements. However, pursuant to
Section 330(e)(5)(D) of the Public Health Service Act (42 USC § 254b(e)(5)(D)), program income may be used for
broader purposes that support the health center program. These broader purposes could include expenses that are
not allowable for federal reimbursement, such as specific costs not included in the grant budget and other costs such
as entertainment expenses (i.e. employee holiday parties). The terms and condition of the grant award specifies
when this alternative use is allowed.


                                                          8
The hospital’s accounting system did not adequately provide information to determine whether a
particular expenditure was paid for with Federal grant funds or program income. Because the
hospital did not separately track Federal and non-Federal expenditures, the hospital cannot
accurately and completely report that indirect expenses for the IDS grant were not paid for with
Federal grant funds.

If the hospital had appropriately tracked program expenditures as required, it could have
demonstrated that unallowable indirect costs were charged to program income or other non-grant
funds (i.e., not the Federal grant). Absent a system which tracks that Federal funds are only
spent for allowable grant costs, the grantee cannot properly account for how Federal funds are
expended.

Finally, we maintain that it is not appropriate for a procurement official (who is not a member of
the accounting staff) to have full access to the hospital’s accounting system.

Procurement Practices

Pursuant to 45 CFR § 74.45, Federal grantees must document that every procurement action is
supported by some form of cost or price analysis. Therefore, we maintain that the hospital’s
purchase of $15,800 in furniture required such an analysis. Regarding the hospital’s statements
concerning its purchases from a local paint and hardware store, the statements are contrary to
those made to us during our fieldwork. During our fieldwork, hospital officials stated in
interviews that the local paint and hardware store purchases were expedited because HRSA
awarded the hospital a CIP grant in June 2009 and informed the hospital that its renovations
needed to be completed by July 2009. Hospital officials told us that, because they only had a
few weeks to complete the renovations, they purchased supplies from local stores without
competitive bids, or a cost or price analysis.

Inventory Records

Pursuant to 45 CFR § 74.34(f)(3), Federal grant recipients shall take a physical inventory of
equipment and the results reconciled with the equipment records at least once every 2 years.
Contrary to the hospital’s assertion that it is standard business practice to only inventory
equipment on the annual anniversary of its program, we believe that standard business practices–
to comply with Federal Regulations–would be for the hospital to initially inventory equipment
upon purchase so that equipment records are up-to-date and accurate. For an inventory system to
function as intended, all equipment should be tagged or marked with an inventory number and
entered into an inventory system database at the time of purchase. The assigned inventory
number may then serve as the basis for subsequent physical inventories. If items are not entered
into the inventory system at the time of purchase, it would be difficult to identify if new
equipment had been lost or stolen. At the time of our fieldwork, we noted that numerous items
listed on the hospital’s records did not have an assigned inventory number.




                                                9
APPENDIX
                                                                                                                           Page 10f8


                  APPENDIX: THE FLOATING HOSPITAL COMMENTS 





                                                                                            New York's SI1 ip of Hea l h Esta~ isl1e d 1865




      VI
           -
           •
       $          ,.                 The Floating Hospital


SEAN T . GRANAHAN                   February 11, 2011
PRESIDENT & CEO

TH E F LOATING HOSPITAL
                                    U.S. Department of Health & Human Services
                                    Office of Inspector General
P . O. BOX 8397
                                    Office of Audit Services
LONG ISl. CITY, NY 11101
                                    Jacob Javits Federal Building
T E L: (718) 784_2240 x105          26 Federal Plaza - Room 3900
F AX: ( 7 18) 784_0240              New York, NY 10278

                                    Re: Report Number A-02-1 0-02008

                             Below is the Response to the OIG Audit of ARRA Funding. It is our
                             understanding that this response vvll be attached to the OIG final audit
                             posted on your Vvebsite and forwarded to our funder, the Health
                             Resources Services Administration (HRSA).

                             As to the Findings and Recommendations, we respond:



                         Accounting System

                         The findings relative to the accounting system makes reference to 45
                         CFR Part 74 and specifically states that the accounting system must
                         segregate operating expenses between Federal and non-Federal
                         programs. Our accounting system does, in fact, segregate revenue
                         and expenses by Federal program and, in our case, the Community
                         Health Center (CHC) program.

                         Consistent with guidance and accounting practices recognized by the
                         Community Health Center funding agency, Health Resources and
                         Services Administration (HRSA), the cost center maintained in our
                         accounting system for the Community Health Center program contains
                         the total Federal program expenditures as approved by HRSA in our
                         grant application and Notice of Grant Award. The one unique feature
                         of the Community Health Center program is that the Federal program
                         expenditures include both those covered by the Federal grant as well
                         as those covered by program income. This accounting treatment is
                                                                                   Page 2 of8




consistent with guidance issued by HRSA in the past and is utilized
nationwide by the Community Health Center industry.

The Community Health Center program has a unique method by which the
Federal grant is spent, driven by the manner in which program income is
applied. This method is described in detail in Attachment 1. This unique
methodology for earning the Federal grant is clearly defined in Federal statute
as well as the Notice of Grant Award, and the manner in which we maintain
our accounting records is consistent with this methodology as well. Because
of this methodology , the Community Health Center cost center includes the
total expenditures of the Federal program, including those covered by
program income.

Accordingly, we do not concur with most of the findings relative to the
Accounting System as we believe we are accounting for the use and
spending of the Community Health Center Federal grant consistent with
Federal statute , as more clearly expla ined in Allachment1 .

CHC's track all CHC program expenses, from both Federal and non-Federal
resources. Federal CHC dollars are not spent on a line-item basis. Instead,
Federal CHC grant funds are spent after program income (non-Federal
resources), up to budget, and are applied to the total CHC program
expenses. This is the total grant concept. As such , the CHC Federal grant is
a "modified " deficit-funding type grant and Federal expenses are not
separately identified. Total CHC expenses are tracked , and then the order of
spending formula applied to determine the amount of Federal funds spent.
This also applies to IDS grants as program income was budgeted.

The basis for withdrawing from the HHS system is that HRSA's funds are the
last funds to be accessed, as noted in your audit comments after a month end
re view. This assures that federal funds are not drawn down in an amount
higher than allowed . Indeed the cost cente rs each had negative balances with
recei vables due . This is an indication that excess federal fund were not drawn
down . In fact, the organization's method is a reimbursement model.
Nevertheless the organization has implemented a procedure limiting how long
Federal funds can be mainta ined prior to disbursing them.

Further, the audit conclusion that controls over accountlng information are
inadequate is patently incorrect. The organization is a charity hospital with a
modest accounting staff. The majority of the accounting staff does not ha ve
access to all aspects of the accounting software . The individual at the origin
of this comment is a director currently charged with procurement and has
been a finance dire ctor at the hospita l and other orga nizations. He is
                                                                                                                                           Page 3 of8




                        integrally involved in the preparation for audits allhe hospital. He serves as
                        supervisor of accounting staff when the Director of Finance is on leave .
                        Therefore he has access to the accounting system as a back-up to the
                        current Director of Finance during her absences.

                        Contrary to the audit citation, the IDS grant was not improperly charged an
                        overhead rate. In fact , in practice , the indirect expenses for IDS are applied
                        as an expense for the non-federal expenses. This is consistent with the
                        HRSA approved "total grant concepl~ . as previously described , and it is
                        appropriate to calculate indirect costs by applying a rate to total CHC
                        expenses.

                        Finally, HRSA is a large intricately sophisticated health services
                        administration with strict financial, programmatic, governance and reporting
                        requirements. Its staff are experts in the provision of ca re to underserved
                        communities. Our organization has had two thorough financial reviews, aside
                        from the annual independent financial review its independent auditors are
                        required to perfo rm for HRSA since becoming a grantee in 2002. The "total
                        grant concept" is a HRSA-known and approved format for managing HRSA
                        grants.

                       By contrast, the OIG audit team acknowledged during the audit that they had
                 t     never performed a hospital nor CHC audit and was applying what they felt
                       were standard , analogous, audit models to a CHC-fiscal environment. Our
                       organization 's senior staff, independent auditors, and senior HRSA managers
                       all met with the OIG audit team to expla in the "total grant concept" to the OIG
                       audit team to no avail.

                        The net result is that the organization is following the budgeting process
                        imposed by the funding agency (HRSA) and being cited for doing so (OIG) .


                        Saf eg uardin g a nd Accounting fo r A s sets

                        Intra-fund bank transfer and credit card policies have been adopted and
                        approved by organization 's board. It is important to note that the organization
                        has one credit card account with a maximum limit of $20,000 for the entire
                        agency (out of a $14 million dollar budget).

                        The unused checks have been moved from the accounts payable office .

                       We have also implemented procedures to assure that costs are reasonable ,
                       allocable , and allowable .

t   Office of Inspcctor Gener~! nOlc; Audit tcarn mcrnb= did not acknowledge that they had never perfonned a hospita l or CHC audit
Contf1lfy to Th<l. Hosp ital's assertiQII. the audit t<l.am conduct<l.d thr<l.c identical aud its ofHRSA.[und<l.d hea lt h centcr.:< pr ior to thi~ review ,
Further, the audit team did not partici!>"te in a join t meeting with The Hospital's senior staff and ind ependent auditors, and s""ior HRSA
m anagen; to discuss the "total grant concept," as The Hosp ital's comm ents imply . Rather, the audit team's meetings w ith HRSA managers
were conducted independent o[The Ho~pital
                                                                                                                                   Page 4 of8




                       Procurement Practicies

                       We do not agree with the audit conclusions in this section.

                       The $15,800 in furniture purchases does not require a cost analysis under the
                       organization procurement policies.

                       The organization originally purchased dental S~~~ in 2005 pursuant to a
                       bidding procedure. The bid was won                       who provided
                       defective equipment and then                                  warranty or
                       otherwise) for it. We contracted i                     to have the
                       equipment repaired and asked it for     I
                       upgraded equipment at issue here. The line item expenses
                       we re less expensive that the items purchased in 2005.

                       The organization's procurement procedures we re not intended to demand
                       that a cost analysis cover memo be completed for every capital purchase in
                       addition to collecting bids, only those of a complex nature . In the future, we
                       will w rite fu ller explanations for such purchases.

                       The organization's CHC is located in an older, pre-war building in Queens.
                       NY. Its landlord is strict about the use of contractors and supplied the name
                       of a contractor with whom he was familiar to work on the e lectricity and install
                       the fire alarm . The purchase reviewed by DIG was an extension of the
                       original fire alarm system, and therefore, changing ven dors would generally
                       not be recommended . This was written but not dated, but will be in the future.

                       The DIG audit team added up purchases over many months of a routine
                       nature from more than one vendor - the local paint and hardware store , and
                       in their hindsight, decided that this should have been subject to bid. The
                       purchases were part of an overall renovation that occurred in stages. It was
                       dependent upon cash flow (since HRSA funds are drawn down under a
                       reimbursement models) and available credit. Furthermore , our competitive bid
                       threshold is applied by vendor.


                       W hi stleblower Process

                       We contacted the law firm that created its whistle blower policy and asked it to
                       update the policy based upon the DIG audit team recommendations.




Office of lnspc::etor General note: ·Iho; dde\o;d te....t has bc<'"ll redactoo bIX:3Uso; it contains tho; n3mes uf dental equipment v<'"lldo~
who were not subjo;\:Ito this 3udit.
                                                                                Page 5 of8




Inventory Records

As the equipmenl purchased with federal CIP funds was less than 10
months old at the time of the audit and the CIP funding was not even fully
spent , the audit comments on inventory are not realistic. Our annual review
would normally occur closer to the annual anniversary of the program

Physical inventories are completed by cost center. We completed an
inventory of one cost center's equipment in June 2009 and of another cost
center's equipment in August 2009 and have continued to do so periodically
with other cost centers.

The organization should not be cited for lack of inventory simply because
the inventory did not occur as quickly as the auditors preferred. Instead,
some deference to standard business practices should have been employed
in the auditors' comments.

The hospital has added the additional categories regarding disposition data ,
condition of property, and title to its inventory procedures.


Sincerely,




Sean T. Granahan
President and General Counsel

Attachment
                                                                                                Page 6 of8




                                                                          Attachment 1



                   SPENDING OF PROGRAM INCOME IN THE 

                   COMM UN ITY 111:-:.0\ [.1'11 CENTIm PROGRAM 



Overview -   U~e   of Program Income:

In gem:ral, mall Y Federa l grant programs n:sull in the gem:ration o f program income,
Program income is defined in the o~m Compliance Supplement as "gross income
recei ved that is directl y ge nerated by th e federall y funded projcct during the grant
period:'

TIle Compliance Supplement goes on to state that " Program income ma y be used in
one ofthree methods: deducted from out lays. added to the project budget, or used to
meet matching r,;,quir,;,m,;,nts. Unl a;~ ~p,;,eifkd in the Federal awa rding ag,;,nev
reg\llation~ or the tcnllS and eo ndition~ of thc award. program income shall be
dcduetl."() from pH)gmm outlay!;,"

Usc of Program Income in the Communit y Health Center Program:

Given that Section 330, the Community Health Center program '!; aUlhori~ing slalul e,
explicitly eit,;,s an a llffilatiw definition for th,;, use of program incom,;" and such
altelllative is carried forward by the Health Rcsourccs and Services Administrat ion
(HRS A) in th,;, typ ical h,;,alth ce nter Notie,;, of Grant Award, th is alt,;,matiw govem s
the hea lth center' s usc of program incomc and the uses sct forth in 45 CrR Part 74 do
not appl y, Section 330(eX5XD); 42 USC 254b(c)(5XD) govern s the Im e of prognlm
income in the Community Health Ccnter program ­

   (D) Use ofnongrantfimds
   Nongrantfimds de.I'(:ribed in dall.m.I' (i) and (ii) ofslIbparagraph (A). inelliding
   any sllch fimds in excess ofthose originafly expected. shall be IIsed as permilled
   under this section. and lIIay be usedfor slIch other pllrposes as are not
   specifically prohibited Imder this section ifsllch use filrlhers the objectives ofthe
   project.

Clauses (i) :md (ii) o f suhparagraph (A) define program income as follows:

    (i)State. local. and other operational fimding provided 10 the center: and
    (ii) the fees. premiulIIs, and third-party rei mbursements. which the center may
    reasonably be expected to receive for ils operations in sllchjiscal year.
                                                                                                   Page 7 of8




TIle unique use of program income in the Commun ity Health Center program is also
clearly noled on Ihe Notice o f Granl Awards issued by HI~SA. The eover page of the
initial Notice of Grant Award ckarly denotcs in I30x 15 that program income shall bc
used in accordance wilh an "Other" method, and not the typical addition, deduction (lr
cost sharing/matching alternatives found in most other Federal grant programs. See
copy below from an aClual Community Health Cenll,"T - Noliee ofGmnt Award:

15. PROGRAM INCOME SUBJECTTO 45 CFR Pari 74.24 OR 45 CFR 92.25 SHAL L BE USED IN ACCDRD
WI lli ONE OF lliE f DLLDWI NG ALTERNATIVES:
A"Addltlon B=Deduc:tlon C_Co st Sharing or Malchlng D"OIher
        [~



·111is ll~': of an ·"01h.:r" mt:thodology is not atyp ical; rather, health centers nationwid.:
use this methodology and have done so lor years. Included in the Program TenllS
s.:clion of Ihe Notic.: of Grant Award (continuation pag.:) is a general over"i.:w of the
"Other" altemalive that is used to spend program income under a Communit y Health
Center grant award. TIK" following is a copy of the Program Tenus, which mirrors
the statutory language set forth in Section 330 and quoted above:

Program income (item 15(d)) - Non-grant funds (State, local, and other operat ional fund ing
and fees, prem iums, iilnd third·party reimbursements which the project may reasonably be
expected to receive, including any such funds in excess of those orig inally expecled), shall be
used as permitted under the law and may be used for such other purposes as are not
specrt ica lly prohibited under the law if such use furthers the objectives of the project.

As such, thc definition of the use o f program incomc in Federal statute       go"cm~    :U1d
45 CFR Pari 74 is not applicable.

Spending of Program Income on Community Health Center Federal Reports:

TIle unique use of program income in the Commun ity Health Center program has
create<! a concept called the "total grant eoneq)t". In general. in order to detennine
the spending of the Conununity Health Cctlter grant funds, the following steps are
required:

       Dctenninc th c total amount of Community Health Ccnter expenditures,
       including 111O~e cover.:d by Federal funds and pmgram incom.:.
  2. 	 Program income, lip to the amollnt budgeted, is then spent and applied against
       thc total anlOunt of Community Health Center expenditures calculated in step I.
  3. 	 Afler prognull income is applied to the total amount of Community Health
       Center cxpcnditures, the remaining expend itures are applied against Ihe Federal
       funds.
         a. 	 Iftherc arc more Federal funds avai lahle thcn the remaining Community
              Health Center expenditures, then th.: exc.::s~ fund~ repr.:s.:nt Unobligat.:d
              Balance of Federal Funds.
                                                                                              Page 8 of8




           b. 	 Ifthe re are more re maining Communit y Health Center expenditures th en
                Federal fu nds awarded. th en the balance o f the Communit y Health Centcr
                expenditures can be covered by progrrull income generated o ver ruld abo ve
                what w a~ hudgctcd.
           c. 	 NOTE: Federal flmd s specificall y eamlarked to r specifi c purposes are
                e:mJ(:d!s pent as th e restricted expenditures aTC incurred.

Recognizi ng the un ique method by which program incom e in the ComnllUlity Health
Celller program is utilized and how the Federal grrult is spem, HRSA iss ued two (2)
Regiona l Pro gram Guidance Memorandums to clarify this methodology.

COIll::lu.~ ioll :


Give n th e abo' -e, reci pients of Federal gram funds under th e Community Health
Center program are req uired tn maintai n in the ir acco unt ing records a separate cost
cente r covering the Communit y Health Center "total grant con cept". As such, this
cost center contains both revenue and expenses covered by both the Federal grant as
we ll as progrrull income. As Federal flUId s are drawn-down and when Fede ral reports
arc prepare d, thc "order of spending" described above is utilized, consistent with the
underl ying Federal statute.
